   June 27, 2005




Defense Infrastructure
Defense Logistics Agency Data Call
Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-088)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
       Additional Information and Copies

       The Department of Defense Office of the Deputy Inspector General for Auditing,
       Readiness and Logistics Support prepared this report. If you have questions or
       would like to obtain additional copies of the final report, contact Mr. Thomas S.
       Bartoszek at (703) 604-9619 (DSN 664-9619) or Mr. John W. Henry at (215) 737-
       3883 (DSN 444-3883).

       Suggestions for Audits

       To suggest ideas for or to request audits, contact Audit Followup and Technical
       Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
       requests can also be mailed to:

                        ODIG-AUD (ATTN: AFTS Audit Suggestions)
                          Department of Defense Inspector General
                            400 Army Navy Drive (Room 801)
                                Arlington, VA 22202-4704




Acronyms

BRAC               Base Realignment and Closure
COBRA              Cost of Base Realignment Actions
DLA                Defense Logistics Agency
DoD OIG            Department of Defense Office of Inspector General
DON                Department of the Navy
HSA                Headquarters and Support Activities
ICP                Internal Control Plan
JCSG               Joint Cross Service Group
JPAT 7             Joint Process Action Team Criterion Number 7
OSD                Office of the Secretary of Defense
S&S                Supply and Storage
                                 INSPECTOR GENERAL
                                DEPARTMENTOFDEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                                June 27.2005
    MEMORANDUM FOR DIRECTOR. DEFENSE LOGISTICS AGENCY
h
    SUBJECT: Report on Defense Logistics Agency Data Call Submissions and Internal
             Control Processes for Base Realignment and Closure 2005
             (Report No. D-2005-088)

            We are providing this report for information and use. No written response to this
    report was required. and none was received. Therefore, we are publishing this report in
    final form. We performed the audit in response to a request from the Under Secretary of
    Defense for Acquisition, Technology, and Logistics.
           We appreciate the courtesies extended to the staff. Questions should be directed
    to Mr. Thomas S. Bartoszek at (703) 604-9619 (DSN 664-96 19) or Mr. John W. Henry at
    (215) 737-3883 (DSN 414-3883). See Appendix H for the report distribution. The team
    members are listed on the inside back cover.
                                   By direction of the Deputy Inspector General for Auditing:




                                        Acting Assistant Inspector General
                                       for Readiness and Logistics Suppon
               Department of Defense Office of Inspector General
Report No. D2005-088                                                       June 27, 2005
 (Project No. D2004-D000LD-0076.000)

               Defense Logistics Agency Data Call Submissions
                   and Internal Control Processes for Base
                       Realignment and Closure 2005



                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, Defense Logistics Agency (DLA) management personnel, and anyone
interested in the Base Realignment and Closure (BRAC) process should read this report.
The report discusses the adequacy, completeness, and integrity of the data provided by
DLA to assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, that states the Department of Defense
Office of Inspector General would review the accuracy of BRAC data and the
certification process.

BRAC 2005 established procedures to provide a fair process for base realignments and
closures in the United States and its territories and was divided into the following data
calls: capacity analysis, supplemental capacity, military value, Cost of Base Realignment
Actions, Joint Process Action Team Criterion Number 7, and scenario specific. The
supplemental capacity, military value, Cost of Base Realignment Actions, and Joint
Process Action Team Criterion Number 7 data calls were collectively known as the
second data call. We issued 18 site memorandums for the capacity analysis data call and
14 site memorandums for the second data call to summarize the results of the DLA sites
reviewed.

Defense Logistics Agency. With Headquarters at Fort Belvoir, Virginia, DLA is a
combat support agency responsible for worldwide logistics support, including procuring,
stocking, and issuing consumable items throughout DoD. The primary focus of DLA is
to support military operations in peace and in war, and to provide relief efforts during
times of national emergency. As of March 2005, DLA managed approximately
5.2 million items. Appendix C is a list of the seven DLA primary field activities along
with the other services provided by DLA.

Results. We evaluated the validity, integrity, reasonableness, and supporting
documentation of BRAC 2005 data and compliance with the Office of the Secretary of
Defense and DLA internal control plans (ICP) at 17 sites for the capacity analysis data
call (see Appendix D for list of sites visited and questions reviewed), 10 sites for the
second data call (see Appendix E for list of sites visited and questions reviewed), and at
DLA headquarters for 15 scenario specific data calls (see Appendix G for a list of
scenario data calls reviewed). In addition, the DLA BRAC office was required to
provide clarification responses to 45 questions related to either the second data call,
scenario data calls, or from the Supply and Storage Joint Cross Service Group.
Furthermore, on February 23, 2005, we validated the Joint Process Action Team
Criterion Number 7 responses provided by DLA for two sites in the Washington, D.C.,
area.

As of April 8, 2005, the DLA BRAC 2005 data were generally supported, reasonable,
complete, and accurate once the corrections were made for the sites reviewed. However,
some of the capacity analysis data call responses were supported with estimates or
professional judgment. In addition, there is a possibility that there could be some
duplicate responses for a few information technology-related question numbers for DLA
headquarters and the Army, along with some of the Defense Fuel Supply Points and their
host activities. We could not determine if there was duplicate reporting, or whether it
had any impact on the DLA responses. For the second data call, 27 question numbers
were either partially supported or supported by estimates or professional judgment. For
the scenario specific data calls, responses were based on a combination of estimates,
professional judgment, and the certified responses from the capacity analysis and second
data calls. The DLA certifying official considered the estimates and professional
judgments to be the best available data for some of the scenario specific data calls.

The data collection processes for the sites visited generally complied with applicable
ICPs. Also, the DLA ICP properly incorporated and supplemented the Office of the
Secretary of Defense ICP. However, 6 of the 17 sites visited during the capacity analysis
data call had minor ICP compliance deficiencies. These deficiencies included responses
that were not properly certified, supporting documentation that was not being maintained
by the trusted agent, and not completing nondisclosure agreements. By the completion of
the second data call, all of the sites reviewed were in compliance with the applicable
ICPs. Despite these problems, we consider the data, responses, and sources to be
generally supported, reasonable, complete, and accurate for use in the BRAC 2005
process.

Management Comments. We provided a draft of this report on May 12, 2005 to DLA
officials. No written response was required, and none was received. Therefore, we are
publishing this report in final form.




                                             ii
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objectives                                                                  3

Finding
     Defense Logistics Agency BRAC 2005 Data Call Submissions and
        Internal Control Processes                                          4

Appendixes
     A. Scope and Methodology                                              10
        Management Control Program Review                                  16
     B. Prior Coverage                                                     17
     C. Primary DLA Field Activities and Other Services Provided           21
     D. Capacity Analysis Data Call Questions Reviewed and Sites Visited   23
     E. Second Data Call Questions Reviewed and Sites Visited              38
     F. Second Data Call Responses Considered Unsupported or Partially
          Supported                                                        48
     G. Scenario Specific Data Calls Reviewed                              50
     H. Report Distribution                                                53
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    Secretary of Defense submitted recommendations to the independent Commission
    on May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, was to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage
    (S&S), and Technical. The JCSGs addressed issues that affect common business-
    oriented support functions, examined functions in the context of facilities, and
    developed realignment and closure recommendations based on force structure
    plans of the Armed Forces and on selection criteria. To analyze the issues, each
    JCSG developed data call questions to obtain information about the functions that
    they reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls:
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), and Joint Process Action Team Criterion
    Number 7 (JPAT 7), and scenario specific. The supplemental capacity, military
    value, COBRA, and
    JPAT 7 data calls were collectively known as the second data call. The Services,
    Defense agencies, and Defense-Wide Organizations used either automated data
    collection tools or a manual process to collect data call responses. Each data call
    had a specific purpose as follows:

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity analysis data call clarified inconsistent data
               gathered with the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.




                                         1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 1

                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for privatization, realignment, or closure.

           In addition, Defense Logistics Agency (DLA) was required to provide
           clarification responses to 7 questions related to the second call, 14 questions
           related to scenario data calls, and 24 questions from the S&S JCSG dealing with
           personnel, space requirements, types of storage, and categories of items managed
           by DLA.

           Internal Control Plans. Before the BRAC data calls were released to the
           Services, Defense agencies, and Defense-Wide Organizations, OSD required
           them to prepare internal control plans (ICP) that incorporated and supplemented
           the OSD ICP. The OSD ICP was issued in the Under Secretary of Defense for
           Acquisition, Technology, and Logistics’ memorandum, “Transformation Through
           Base Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
           Responsibilities, and Procedures,” (Policy Memorandum One) April 16, 2003.
           To comply with that requirement, DLA prepared “Defense Logistics Agency
           (DLA) Base Realignment and Closure (BRAC) 2005 Internal Control Plan,
           (ICP)” on September 4, 2003, and then updated the plan on December 17, 2004.
           For the capacity analysis data call and for the second data call, DLA used a
           modified version of the Army Online Data Collection Tool, a stand-alone
           database tool developed for the Army Basing Study Group, to collect BRAC data.

           Department of Defense Office of Inspector General Responsibility. Policy
           Memorandum One requires the Department of Defense Office of Inspector
           General (DoD OIG) to provide ICP development and implementation advice,
           review the accuracy of BRAC data, and evaluate the data certification processes.
           In addition, the memorandum requires DoD OIG personnel to assist the JCSGs
           and DoD Components as needed. This resulting report summarizes the DoD OIG
           efforts related to the DLA BRAC 2005 process.

           DLA. With headquarters at Fort Belvoir, Virginia, DLA is a combat support
           agency responsible for worldwide logistics support, including procuring,
           stocking, and issuing consumable items throughout DoD. The primary focus of
           DLA is to support military operations in peace and in war, and to provide relief
           efforts during times of national emergency. As of March 2005, DLA managed
           approximately 5.2 million items. To accomplish its mission, DLA has seven
           primary field activities located throughout the continental United States.
           Appendix C provides a brief description of the seven field activities along with
           the other services provided by DLA. See Appendixes D and E for a list of sites
           visited and question numbers reviewed for each data call.




1
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.



                                                        2
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DLA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DLA complied with the
    OSD and DLA ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the audit scope and methodology and our review of the management control
    programs related to the objectives. See Appendix B for prior coverage.




                                        3
           Defense Logistics Agency BRAC 2005
           Data Call Submissions and Internal
           Control Processes
           Once corrections were made, we considered the responses that were
           provided for the BRAC 2005 data calls for the DLA sites selected for
           review to be generally supported, reasonable, complete, and accurate.
           However, some of the responses were based on professional judgments or
           estimates that the certifying official considered to be the best data
           available. In addition, the DLA sites visited generally complied with the
           ICPs and the DLA ICP properly incorporated and supplemented the OSD
           ICP. However, 6 of the 17 sites visited during the capacity analysis data
           call had minor ICP compliance deficiencies. In addition, DLA did not
           adequately support 27 responses submitted to OSD for the second data
           call. These issues are considered immaterial and should not impact the
           reliability and integrity of the DLA data for use in BRAC 2005 analysis.


DLA BRAC 2005 Data Call Submissions
    After our review, we considered the responses for the BRAC 2005 data calls,
    which were provided by DLA headquarters, and for the sites visited and questions
    reviewed to be generally supported, reasonable, complete, and accurate. After
    reviewing the questions for each data call, personnel from the DLA BRAC office
    targeted specific questions to each of the sites. We evaluated the validity,
    integrity, and supporting documentation of the targeted questions. Specifically,
    we compared question responses to supporting documentation and reviewed “Not
    Applicable” question responses to determine whether the responses were
    reasonable and not default “Not Applicable” responses.

    Capacity Analysis Data Call. After our review, DLA headquarters and the
    16 sites visited provided generally supported, reasonable, complete, and accurate
    responses to the questions reviewed for the capacity analysis data call. For the
    capacity analysis data call, the DLA BRAC office received 753 questions from
    the OSD BRAC Office. The DLA BRAC office, in coordination with
    representatives from the various DLA sites, determined the applicability of each
    question. The DLA BRAC office then targeted the questions to the following
    sites:

               •   DLA headquarters;
               •   the 165 Document Automation and Production Service sites;
               •   the Defense Reutilization and Marketing Service,
                   and the 67 Defense Reutilization and Marketing Offices;
               •   the 38 Defense National Stockpile Center sites;
               •   the Defense Distribution Center headquarters, and the
                   20 Distribution Depots;
               •   the Defense Energy Support Center headquarters, and the
                   5 Defense Fuel Supply Points;



                                        4
           •   the 5 Defense Logistics Agency Systems Integration Offices;
           •   the 3 Defense Supply Centers;
           •   the 2 Defense Automated Addressing System Centers;
           •   the Defense Logistics Information Service; and
           •   the Defense Operations Research and Resource Analysis Office.

We evaluated the data call responses and support provided by DLA for the
selected sites reviewed. See Appendix D for a list questions reviewed and sites
visited. In addition, we also reviewed the reasonableness and support for “Not
Applicable” responses to ensure the response submitted was not an erroneous
default. The “Not Applicable” responses were reasonable. For the sites
reviewed, we identified responses with inadequate support and inaccurate
responses. However, as a result of our site visits, DLA sites revised responses
and provided additional supporting documentation to correct the issues. We
verified and concurred with the majority of changes made in the Data Collection
Tool. The DoD OIG Office of Data Mining did a computer comparison between
the responses provided by DLA and the responses that were recorded in the OSD
Database. On May 17, 2005, they issued a memorandum that identified some
discrepancies that needed to be researched by the audit team and DLA and OSD
BRAC offices. The results of the research will be issued in a separate
memorandum.

A relatively small number of responses provided by DLA headquarters, the
Defense Fuel Supply Points, the Distribution Depots, and the three Supply
Centers were based on estimates or professional judgments that we could not
validate. We believe the estimates and professional judgment responses were
reasonable because they were based upon data that the certifying official
considered to be the best available. Furthermore, a possibility exists that
duplicate reporting occurred for a small number of questions dealing with
installation requirements, or installation/facility communication/information
technology service providers. Specifically, the responses provided by DLA
headquarters and its host activity for question numbers 23 through 25, 27, 314,
319, 456, and 457 could be duplicate responses. Also, duplicate reporting could
also have occurred between the Defense Fuel Supply Points and their respective
host organizations for question numbers 602, 612, 613, 615, and 617 (San Pedro);
for question numbers 602 and 612 through 615 (Charleston); and for question
numbers 456 and 457 for all five Defense Fuel Supply Points. We could not
determine if there was duplicate reporting, or whether it had any impact on the
DLA responses.

Second Data Call. After our review, the responses provided for the second data
call were generally supported, reasonable, complete, and accurate. The DLA
BRAC office received targeted questions from the JCSGs. For the second data
call the DLA BRAC office conducted a workshop with responsible BRAC
personnel from the various DLA sites to review the applicability of the questions
and to determine which ones were applicable to the following sites:

           •   DLA headquarters;
           •   the Document Automation and Production headquarters and the
               165 Document Automation and Production Service sites;
           •   the Defense Reutilization and Marketing Service, and the



                                    5
                             67 Defense Reutilization and Marketing Offices;
                        •    the 38 Defense National Stockpile Center sites;
                        •    the Defense Distribution Center headquarters, and the
                             20 Distribution Depots;
                        •    the Defense Energy Support Center headquarters, and the
                             5 Defense Fuel Supply Points;
                        •    the 3 Defense Supply Centers;
                        •    the 2 Customer Support Offices;
                        •    the 2 Defense Automated Addressing System Centers; and
                        •    the Defense Logistics Information Service.

           We reviewed the responses provided by DLA headquarters for the selected sites.
           See Appendix E for a list of questions reviewed and sites visited. Furthermore,
           we evaluated the “Not Applicable” responses for reasonableness and support to
           ensure responses submitted were not erroneous defaults. The “Not Applicable”
           responses were reasonable. At the sites, we identified responses with inadequate
           support and inaccuracies. As a result of our site visits, some responses were
           revised and additional supporting documentation was provided to correct the
           issues. We verified and concurred with the majority of changes made in the Data
           Collection Tool. The DoD OIG Office of Data Mining did a computer
           comparison between the responses provided by DLA and the responses that were
           recorded in the OSD Database. On May 17, 2005, they issued a memorandum
           that identified some discrepancies that needed to be researched by the audit team
           and DLA and OSD BRAC offices. The results of the research will be issued in a
           separate memorandum.
           A very small portion of the responses provided by the three Defense Supply
           Centers for S&S JCSG military value question numbers 2801, 2804, 2808, 2810,
           2812, 2851, and 2857 were either unsupported, partially supported, or based on
           estimates because the new DLA supply management system (Business System
           Modernization) did not have the capability to provide the necessary information.
           However, we considered the overall responses provided for these seven questions
           to be reasonable since the Business System Modernization portion of the
           responses represents an insignificant portion of the total response. In addition, we
           could not validate HSA JCSG military value question numbers 1907 2 and 1908 3
           for DLA headquarters because the documentation used by DLA to support the
           response were the calendars of senior officials. We could not verify whether the
           meetings actually took place. See Appendix F for a list of second data call
           responses considered unsupported or partially supported.

           The JPAT 7 group replaced question numbers 1418 and 1419 with question
           numbers 1420 and 1421 subsequent to some of our site visits. Furthermore, the
           JPAT 7 group requested changes to DLA data subsequent to our site visits.
           Changes made after November 24, 2004, except for the DLA sites located at
           Beauregard Square, Alexandria, Virginia, and Crystal Plaza 5, Arlington,
           Virginia, were not verified by the DoD OIG audit teams. We validated the
2
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
3
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.



                                                       6
     revised JPAT 7 responses provided by DLA for the two sites in the Washington,
     D.C., area on February 23, 2005. These revised responses were considered
     reasonable, supported, complete, and accurate.

     Scenario Specific Data Call. As of April 8, 2005, DLA generally provided
     reasonable responses and adequate support, once the corrections were made, for
     the 15 active and inactive scenario specific data calls reviewed. Furthermore, the
     majority of the scenario specific responses were based on professional judgment
     or estimates that the certifying official considered to be the best data available.
     Except for the responses provided for a portion of personnel data for scenario
     specific data call (S&S-0035) and the personnel savings factor used in the HSA
     JCSG scenario specific data calls, the DLA responses were reasonable and
     adequately supported. See Appendix G for a list of scenario specific data calls
     reviewed. Subsequent to our review (April 8, 2005), S&S-0035 and the HSA
     JCSG scenarios were revised. We did not validate the revised responses.

      In addition, DLA generally provided reasonable responses and supporting
     documentation for input into two Department of the Navy (DON) scenarios.
     DON requested DLA to provide responses to two Navy unique scenarios,
     (DON-0165 and DON-0167). As a result of our review, certain responses were
     revised and the supporting documentation was provided to correct the issues. The
     majority of the scenario specific responses were based on professional judgment
     or estimates that the certifying official considered to be the best data available.
     For three contract-related questions, while we did not agree with the Defense
     Distribution Center headquarters responses, we were unable to determine the
     overall impact these responses had on the scenarios. See Appendix G, Table 3 for
     categories of information reviewed.

     During the scenario specific data call, the DLA BRAC office also received a total
     of 45 additional questions: 7 requesting clarification for questions related to the
     second data call; 14 requesting clarification to various scenario specific data call
     questions; and 24 questions from the S&S JCSG dealing with personnel, space
     requirements, types of storage, and categories of items managed by DLA. During
     our review, we identified responses with inadequate support or inaccuracies. As a
     result of our review, certain responses were revised and the supporting
     documentation was provided to correct the issues. The revised responses, with
     the exception of a portion of DLA question number 19, were considered
     reasonable, supported, complete, and accurate. DLA question number 19 had
     discrepancies with the data involving cost codes, building identification,
     warehouse space allocation, and contractor full-time equivalent calculations. We
     were unable to determine the overall impact the erroneous response had on this
     particular question.


Internal Control Processes
     The DLA data collection processes for the sites visited generally complied with
     the applicable ICPs for the capacity data call and second data call. In addition,
     the DLA ICP properly incorporated and supplemented the OSD ICP.

     We evaluated compliance with the DLA ICP at 17 sites for the capacity analysis
     data call and 10 sites for the second data call. During the data calls, we visited



                                          7
    DLA headquarters and various DLA sites (see Appendixes D and E for a list of
    sites visited and questions reviewed). At each site, we evaluated DLA BRAC
    2005 data collection processes to determine whether they complied with OSD and
    DLA ICPs. The evaluation included reviewing whether the DLA ICP
    incorporated and supplemented the OSD ICP and whether sites completed
    nondisclosure agreements, and properly marked, safeguarded, and maintained
    BRAC data. Specifically, we verified that all DLA personnel participating in the
    BRAC process signed nondisclosure agreements; deliberative meeting minutes
    were documented; and that all data had been collected, marked, stored,
    transported, safeguarded, and maintained in compliance with the OSD and DLA
    ICPs.

    Completeness of ICPs. The DLA BRAC 2005 ICP provided a uniform set of
    management controls designed to provide accountability for each sub-element of
    information and analysis used in the BRAC 2005 process. The ICP established
    BRAC 2005 responsibilities for DLA organizations and control mechanisms to
    safeguard DLA BRAC information. The ICPs outlined supporting documentation
    requirements, information and communication controls, public affairs guidance,
    and the DLA data collection plan. Specifically, the ICP included direction on
    completing nondisclosure agreements, close-hold requirements of BRAC
    information, marking and transporting BRAC information, and data certification
    requirements.

    Compliance with ICPs. DLA sites visited were generally compliant with the
    ICP procedures. The site data collection processes for the capacity analysis and
    second data calls complied with the applicable ICPs. However, 6 of the 17 sites
    visited during the capacity data call had minor ICP compliance deficiencies.
    These deficiencies included responses that were not properly certified, supporting
    documentation not being maintained by the trusted agent, and not completing
    nondisclosure agreements. By the completion of the second data call, all of the
    sites reviewed were in compliance with the applicable ICPs. We consider any
    noncompliance with the ICPs to be corrected or not significant enough to affect
    the integrity of the BRAC process.


Conclusion
    DLA BRAC 2005 data call responses for the sites selected for review were
    generally supported, reasonable, complete, and accurate once corrections were
    made. However, DLA did not fully support 27 of the second data call responses
    submitted to OSD, primarily because the required data were not available. Five
    of the 27 responses dealt with JPAT 7 questions; however, subsequent to our site
    visits, the JPAT 7 group requested that some of the DLA sites change a number of
    the responses. Except for the responses provided for sites in the Washington,
    D.C., area, we did not verify the changes; therefore, the issues related to JPAT 7
    question numbers 1405 through 1407, 1420, and 1421 may no longer be valid.

    In addition, the data collection processes generally complied with applicable ICPs
    and the DLA ICP properly incorporated and supplemented the OSD ICP.
    However, 6 of the 17 sites visited during the capacity analysis data call had minor
    ICP compliance deficiencies. By the completion of the second data call, all of the
    sites reviewed were in compliance with the applicable ICPs.



                                         8
We discussed the outstanding issues concerning unsupported responses with DLA
management. DLA concurred with our findings. We determined that these issues
are insignificant and will not impact the overall reliability and integrity of the
DLA BRAC 2005 data. We determined that the data provided by DLA for BRAC
2005 requires no further action by DLA headquarters.




                                    9
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, reasonableness, and supporting
   documentation of DLA BRAC 2005 data. The evaluation included comparing
   question responses to supporting documentation and reviewing “Not Applicable”
   question responses to determine whether responses were reasonable and not
   default “Not Applicable” responses. Questions had either an answer or a “Not
   Applicable” response; a “Not Applicable” response was for questions determined
   not to apply to a site. We ensured that the DLA ICP properly incorporated and
   supplemented the OSD ICP. We evaluated site data collection procedures to
   determine whether they were in compliance with DLA ICP procedures to include
   reviewing the completion of nondisclosure agreements, and the collection,
   marking, safeguarding, and maintenance of BRAC data. In addition, we
   interviewed the personnel responsible for preparing and certifying the responses
   to the data calls. DLA also provided auditors to assist in the data validation at
   selected DLA sites. The DLA auditors were used as team members, but were
   restricted from being team leaders, or validating data from their respective
   activities. The DoD OIG Office of Data Mining did a computer comparison
   between the responses provided by DLA and the responses that were recorded in
   the OSD Database. Their review identified some discrepancies that needed to be
   researched by the audit team and DLA and OSD BRAC offices. The results of
   the research will be issued in a separate memorandum.

   Scope Limitations. For the capacity analysis data call, we validated the
   responses at 17 DLA sites. At 6 of the 17 sites visited, we were able to validate
   the responses provided by the field activities. For example, we validated the
   responses provided for 30 of the 165 Defense Automation and Production Service
   sites at the Defense Automation and Production Service headquarters,
   Mechanicsburg, Pennsylvania; 20 of the 67 Defense Reutilization and Marketing
   Offices at the Defense Reutilization and Marketing Service, Battle Creek,
   Michigan; the 5 Defense Fuel Supply Points at the Defense Energy Support
   Center headquarters, Fort Belvoir, Virginia; 13 of the 38 Defense National
   Stockpile Centers at the Defense National Stockpile Center, Fort Belvoir,
   Virginia; the Defense Automatic Addressing System Center (Tracy, California) at
   the Defense Automatic Addressing System Center headquarters, Dayton, Ohio;
   and 12 of the 20 Defense Distributions Depots at the Defense Distribution Center
   headquarters, New Cumberland, Pennsylvania.
   During the second data call, we validated the responses for 22 of the
   commercially leased Defense Automation and Production Service sites at the
   Defense Automation and Production Service headquarters, Mechanicsburg,
   Pennsylvania; 20 of the 67 Defense Reutilization and Marketing Offices at the
   Defense Reutilization and Marketing Service, Battle Creek, Michigan; the 5
   Defense Fuel Supply Points at the Defense Energy Support Center headquarters,
   Fort Belvoir, Virginia; 13 of the 38 Defense National Stockpile Centers at the
   Defense National Stockpile Center, Fort Belvoir, Virginia; the Defense Automatic
   Addressing System Center (Tracy, California) at the Defense Automatic
   Addressing System Center headquarters, Dayton, Ohio; 10 of the 20 Defense
   Distribution Depots at the Defense Distribution Center headquarters, New
   Cumberland, Pennsylvania; and the 2 Civilian Personnel Offices at the DLA
   headquarters, Fort Belvoir, Virginia.



                                       10
           Capacity Analysis Data Call. DLA received 753 capacity analysis data call
           questions from the OSD BRAC Office. The DLA BRAC office, in coordination
           with representatives from the various DLA sites, determined the applicability of
           each question. The DLA BRAC office then targeted the questions to DLA
           headquarters and the DLA sites. Specifically, the DLA BRAC office targeted
           79 questions for DLA headquarters, 19 questions for the Document Automation
           and Production Service sites, 65 questions for the Defense Reutilization and
           Marketing Service, 60 questions for the Defense Reutilization and Marketing
           Offices, 31 questions for the Defense National Stockpile Centers, 37 questions for
           the Defense Distribution Center Headquarters, between 15 and 75 questions for
           the Defense Distribution Depots, 84 questions for the Defense Energy Support
           Center, 95 or 96 questions for the Defense Fuel Supply Points, between 37 and 40
           questions for the Defense Logistics Agency System Integration Offices, 148
           questions for the Defense Supply Center Columbus, 133 questions for the
           Defense Supply Center Richmond, 64 questions for the Defense Supply Center
           Philadelphia, 1 31 questions for the Defense Automation Addressing System
           Center, 63 questions for the Defense Logistics Information Service, and 2
           questions for the Defense Operation Research and Resource Analysis Office.

           We evaluated all of the DLA targeted data call questions at each DLA site visited
           and reviewed questions for subordinate activities. In addition, we evaluated the
           “Not Applicable” responses and support for reasonableness to ensure responses
           were not erroneous default answers. We judgmentally selected to review the
           responses provided for 30 of the 165 Defense Automation and Production sites,
           20 of the 67 Defense Reutilization and Market Office sites, 13 of the 38 Defense
           National Stockpile Center sites, and 12 of the 20 Distribution Depots. We issued
           18 site memorandums to summarize the results of the site visits. For a listing of
           questions reviewed for each site see Appendix D.

           Second Data Call. The DLA BRAC office received targeted questions from the
           JCSGs. Specifically, DLA received S&S JCSG military value question numbers
           (2800 through 2857), S&S JCSG supplemental capacity question numbers
           (4306 through 4311), HSA JCSG military value question numbers (1900, 1905,
           1907 through 1918, and 1961 through 1963), HSA JCSG supplemental capacity
           question numbers (4072 through 4074, 4079 through 4081, 4096, 4099, and
           4103), Industrial JCSG military value question numbers (2154, 2157, 2215, 2219,
           2220, 2275, 2278 through 2286, 2341, and 2344 through 2347), Industrial JCSG
           supplemental capacity question number (4276), COBRA question numbers (1500
           through 1507), and JPAT 7 question numbers (1400 through 1417, 1420, and
           1421). For the second data call the DLA BRAC office conducted a workshop
           with responsible BRAC personnel from the various DLA sites to review the
           applicability of the questions and determined which questions were applicable to
           DLA headquarters, Document Automation and Production Service headquarters
           and the 165 Document Automation and Production Service sites, the Defense
           Reutilization and Marketing Service and the 67 Defense Reutilization and
           Marketing Offices, the 38 Defense National Stockpile Centers, the 20 Defense

1
    The Defense Supply Center Philadelphia is a tenant activity on the Naval Support Activity Philadelphia
    Compound. The Defense Supply Centers Columbus and Richmond are considered host activities, and as
    such, were required to provide responses as a host activity. Similar questions for Defense Supply Center
    Philadelphia were answered by the Naval Support Activity Philadelphia.



                                                      11
Distribution Depots, Defense Energy Support Center headquarters and the 5
Defense Fuel Supply Points, the 3 Defense Supply Centers, the 2 Customer
Support Offices, the 2 Defense Automation Addressing System Centers, and the
Defense Logistics Information Service.

The DLA BRAC office further targeted second data call questions to DLA
headquarters and to the specific DLA sites. Specifically, DLA headquarters
received 25 questions, Document Automation and Production Service
headquarters received 10 questions, the Document Automation and Production
Service sites received 24 questions, the Defense Reutilization and Marketing
Service received 8 questions, the Defense Reutilization and Marketing Offices
received 22 questions, the Defense National Stockpile Centers received 59
questions, the Defense Distribution Depots received between 13 and 88 questions,
Defense Energy Support Center headquarters received 35 questions and the 5
Defense Fuel Supply Points received between 36 and 56 questions, the Defense
Supply Center Columbus received 74 questions, the Defense Supply Center
Richmond received 95 questions, the Defense Supply Center Philadelphia
received 58 questions, the Customer Support Offices received 10 questions, the
Defense Automation Addressing System Centers sites received 10 questions, and
Defense Logistics Information Service received 67 questions.

We audited the second data call responses for DLA during the period from
June 28, 2004, through October 28, 2004, and reviewed any changes through
November 2004. The JPAT 7 group replaced question numbers 1418 and 1419
with question numbers 1420 and 1421 subsequent to some of our site visits.
Furthermore, the JPAT 7 group requested changes to DLA data subsequent to our
site visits. Changes made after November 24, 2004, except for the DLA sites
located at Beauregard Square, Alexandria, Virginia, and Crystal Plaza 5,
Arlington, Virginia, were not verified by the DoD OIG audit team. We validated
JPAT 7 responses provided by DLA for the two sites in the Washington, D.C.,
area on February 23, 2005. In addition, we did not make a determination as to
whether the support was reasonable or accurate for HSA JCSG military value
question numbers 1907 and 1908 because we were unable to validate the steps
taken to generate the responses. The documentation used by DLA to support the
responses was the calendars of senior officials.

We also evaluated the reasonableness and support for the “Not Applicable”
responses to ensure responses were not erroneous defaults. In addition to
reviewing the second data call responses, we followed up on outstanding issues
from the capacity analysis data call.
Specifically, we followed up on the responses and documentation from the initial
capacity analysis data call:

           •   Defense Supply Center Columbus, Columbus, Ohio: question
               numbers 24, 27, 314 through 319, 321, 326, 327, 582, 640, 642,
               657, 658, and 664;

           •   Defense Supply Center Philadelphia, Philadelphia,
               Pennsylvania: question numbers 23, 302, 311, 319, 634, 635,
               640, 642 through 644, 652, 657, 660, 664, 665, 667, 668, 678, 680,
               and 681;




                                   12
•   Defense Supply Center Richmond, Richmond, Virginia:
    question numbers 212, 318, 328, 329, 473, 474, 506, 546, 635,
    640, 655, 657 through 659, 664, 665, and 679;

•   Defense Energy System Center, Fort Belvoir, Virginia:
    question numbers 27, 301, 311, 463, 635, 640, 642, 654, 656, 658,
    659, 664, and 666;

•   DLA Headquarters, Fort Belvoir, Virginia: question numbers
    311, 328, 329, 446, 462, 473, and 474;

•   Defense Reutilization and Marketing Service, Battle Creek,
    Michigan: question numbers 11, 311, 634 through 637, 655, 656,
    659, and 677;

•   Customer Support Office, Columbus, Ohio: question numbers
    480 and 482;

•   Customer Support Office, New Cumberland, Pennsylvania:
    question numbers 480 and 482;

•   Defense Distribution Depot, Albany, Georgia: question
    numbers 301, 637, 641, 642, 645, 658, 659, and 666;

•   Defense Distribution Depot, Anniston, Alabama: question
    numbers 319, 637, 641, 642, 645, 656, and 666;

•   Defense Distribution Depot, Barstow, California: question
    numbers 301, 641, 645, 658, 659, and 666;

•   Defense Distribution Depot, Cherry Point, North Carolina:
    question numbers 301, 635, 637, 641, 642, 645, 658, 659, and 666;

•   Defense Distribution Depot, Columbus, Ohio: question
    numbers 301, 637, 641, 642, 645, 658, and 666;

•   Defense Distribution Depot, Corpus Christi, Texas: question
    numbers 301, 319, 636, 637, 641, 642, 645, 658, and 666;
•   Defense Distribution Depot, Hill, Utah: question numbers 319,
    635, 641, 642, 645, 658, and 666;

•   Defense Distribution Depot, Jacksonville, Florida: question
    numbers 301, 319, 636, 637, 641, 642, 645, 658, 666, and 672;

•   Defense Distribution Mapping Agency, Richmond, Virginia:
    question numbers 319, 636, 658, 659, and 666;

•   Defense Distribution Depot, Norfolk, Virginia: question
    numbers 301, 636, 637, 641, 642, 645, 658, and 666;

•   Defense Distribution Depot, Oklahoma City, Oklahoma:
    question numbers 637, 641, 642, 645, 658, and 666;



                        13
          •   Defense Distribution Depot, Pearl Harbor, Hawaii: question
              numbers 301, 319, 637, 641, 642, 645, 658, 659, and 666;

          •   Defense Distribution Depot, Puget Sound, Washington:
              question numbers 302, 636, 637, 641, 642, 645, 658, 666, and 672;

          •   Defense Distribution Depot, Red River, Texas: question
              numbers 319, 637, 641, 642, 645, 658, and 666;

          •   Defense Distribution Depot, Richmond, Virginia: question
              numbers 636, 637, 641, 642, 645, 658, and 666;

          •   Defense Distribution Depot, San Diego, California: question
              numbers 301, 636, 637, 641, 642, 645, 658, and 666;

          •   Defense Distribution Depot, San Joaquin, California: question
              numbers 301, 303, 319, 546, 634, 637, 641, 642, 645, 658, and 666;

          •   Defense Distribution Depot, Susquehanna, Pennsylvania:
              question numbers 275, 319, 542, 546, 574, 634, 637, 641, 642,
              645, 666, and 685;

          •   Defense Distribution Depot, Tobyhanna, Pennsylvania:
              question numbers 319, 635, 637, 641, 642, 645, 666, and 685;

          •   Defense Distribution Depot, Warner Robins, Georgia: question
              numbers 301, 635, 637, 641, 642, 645, 659, 666, and 685;

          •   Defense Fuel Supply Point, Charleston Air Force Base, South
              Carolina: question numbers 11, 455, 645, 654 through 656, 661,
              662, and 670;

          •   Defense Fuel Supply Point, Grand Forks Air Force Base,
              North Dakota: question numbers 11, 301, 645, 654 through 656,
              and 682;

          •   Defense Fuel Supply Point, Griffis Air Force Base, Verona,
              New York: question numbers 11, 30, 31, 198, 594, 634, 645, 654
              through 656, 681, 682, and 752;
          •   Defense Fuel Supply Point, McDill Air Force Base, Tampa,
              Florida: question numbers 11, 301, 645, 654 through 656, 662,
              and 682; and

          •   Defense Fuel Supply Point, South West Division, Naval
              Facilities Engineering Command, San Pedro, California:
              question numbers 11, 211, 281, 301, 645, 654 through 656, 661,
              and 681.

We issued 14 site memorandums to summarize the results of the second data call.
For a listing of questions reviewed for each site see Appendix E.




                                   14
Scenario Specific Data Call. We evaluated the responses and support to the
15 JCSG scenario specific data calls at DLA headquarters, as well as to two
Navy-related scenario specific data calls. As of April 8, 2005, the DLA BRAC
office received a total of 27 scenario specific data calls: 17 from the S&S JCSG of
which 8 were subsequently cancelled and 3 were categorized as inactive; 7 from
HSA JCSG, 1 of which was subsequently cancelled and 5 categorized as inactive;
and 3 from the Industrial JCSG, all of which were subsequently cancelled. Also,
the Department of the Navy required the DLA BRAC office to provide responses
for two Navy-related scenario specific data calls (DON-0165 and DON-0167).
For DON-0165, we evaluated the responses and support provided by the DLA
Defense Distribution Center headquarters and the Defense Reutilization and
Marketing Service. For DON-0167, we evaluated the responses and supporting
documentation provided by a DLA Systems Integration Office and a Document
Automation and Production Service site. For a listing of scenarios reviewed and
data gathered for each site see Appendix G.

Clarification and Follow-up Questions. During the scenario specific data call,
the DLA BRAC office received a total of 45 additional questions: 7 requesting
clarification for questions related to the second data call; 14 requesting
clarification to various scenario specific data call questions; and 24 questions
from the S&S JCSG dealing with personnel, space requirements, types of storage,
and categories of items managed by DLA. We evaluated the responses and
support for the 45 clarification and follow-up questions at DLA headquarters.

We performed this audit from December 2003 through May 2005 in accordance
with generally accepted government auditing standards.

Use of Computer-Processed Data. We did not test the accuracy of the
computer-processed data used to support answers to data call questions because
of time constraints. Potential inaccuracies in the data could impact the results.
However, the BRAC data were certified as accurate and complete to the best of
the certifier’s knowledge and belief. We did not review the data collection tool
used. The Army Audit Agency evaluated the Army Online Data Collection Tool
and suggested that the Army review all data submitted before certification to
ensure that responses were in the appropriate format. The corrections suggested
by the Army Audit Agency for the Online Data Collection Tool were
implemented during the capacity data call. DLA used a modified version of this
tool for the BRAC 2005 capacity analysis and second data calls. DLA did not use
a data collection tool for the scenario specific data call.
Government Accountability Office High-Risk Areas. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Federal Real Property and the DoD Approach to
Business Transformation, DoD Support Infrastructure Management high-risk
areas.




                                    15
Management Control Program Review
    We evaluated the DLA management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed nondisclosure
    agreements, deliberative meeting minutes, storage of BRAC data, and the
    supporting documentation for DLA BRAC responses. Management controls were
    adequate as they applied to the audit objectives (see finding for specific details).
    We did not review the DLA management control program because its provisions
    were not deemed applicable to the one-time data collection process.




                                        16
Appendix B. Prior Coverage
    During the last 5 years, the following DoD Inspector General site memorandums
    have been issued related to DLA BRAC 2005, along with the Army Audit
    Agency audit report related to the Army Online Data Collection Tool for BRAC
    2005.

DoD Inspector General
    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Energy Support Center, Fort Belvoir, Virginia, to the Defense Logistics
    Agency Headquarters, for Base Realignment and Closure 2005,” November 24,
    2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Distribution Center, New Cumberland, Pennsylvania, to the Defense
    Logistics Agency Headquarters for Base Realignment and Closure 2005,”
    November 16, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission for the
    Defense Logistics Agency Headquarters Operations, Fort Belvoir, Virginia, to the
    Defense Logistics Agency Headquarters for Base Realignment and Closure
    2005,” November 10, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Supply Center Columbus, Columbus, Ohio, to the Defense Logistics
    Agency Headquarters for Base Realignment and Closure 2005,” November 5,
    2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Supply Center Philadelphia, Philadelphia, Pennsylvania, to the Defense
    Logistics Agency Headquarters for Base Realignment and Closure 2005,”
    November 5, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Supply Center Richmond, Richmond, Virginia, to the Defense Logistics
    Agency Headquarters for Base Realignment and Closure 2005,” November 5,
    2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Reutilization and Marketing Service, Battle Creek, Michigan, to the
    Defense Logistics Agency Headquarters for Base Realignment and Closure
    2005,” November 2, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Document Automation and Production Service Headquarters, Mechanicsburg,



                                       17
Pennsylvania, to the Defense Logistics Agency Headquarters for Base
Realignment and Closure 2005,” November 1, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Defense National Stockpile Center, Fort Belvoir, Virginia, to the Defense
Logistics Agency Headquarters for Base Realignment and Closure 2005,”
November 1, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Customer Support Office, Columbus, Ohio, to the Defense Logistics Agency
Headquarters for Base Realignment and Closure 2005,” October 25, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Customer Support Office, New Cumberland, Pennsylvania, to the Defense
Logistics Agency Headquarters for Base Realignment and Closure 2005,”
October 25, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Defense Automatic Addressing System Center, Dayton, Ohio, to the Defense
Logistics Agency Headquarters for Base Realignment and Closure 2005,”
October 25, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Defense Automatic Addressing System Center, Tracy, California, to the Defense
Logistics Agency Headquarters for Base Realignment and Closure 2005,”
October 25, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from Defense
Logistics Information Service, Battle Creek, Michigan, to the Defense Logistics
Agency Headquarters for Base Realignment and Closure 2005,” October 25, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Distribution Center, New Cumberland, Pennsylvania, to the
Defense Logistics Agency Headquarters for Base Realignment and Closure
2005,” May 24, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Energy Support Center, Fort Belvoir, Virginia, to the Defense
Logistics Agency Headquarters for Base Realignment and Closure 2005,” May
20, 2004
DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Logistics Agency Headquarters Operations, Fort Belvoir,
Virginia, to the Defense Logistics Agency Headquarters for Base Realignment
and Closure 2005,” May 19, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Supply Center Columbus, Columbus, Ohio, to the Defense
Logistics Agency Headquarters for Base Realignment and Closure 2005,” May
19, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Supply Center Richmond, Richmond, Virginia, to the Defense



                                  18
Logistics Agency Headquarters for Base Realignment and Closure 2005,” May
14, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Document Automation and Production Service Headquarters,
Mechanicsburg, Pennsylvania, to the Defense Logistics Agency Headquarters for
Base Realignment and Closure 2005,” May 11, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Reutilization and Marketing Service, Battle Creek, Michigan, to the
Defense Logistics Agency Headquarters for Base Realignment and Closure
2005,” May 11, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Supply Center Philadelphia, Philadelphia, Pennsylvania, to the
Defense Logistics Agency Headquarters for Base Realignment and Closure
2005,” May 11, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense National Stockpile Center, Fort Belvoir, Virginia, to the
Defense Logistics Agency Headquarters for Base Realignment and Closure
2005,” May 5, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Operations Research and Resource Analysis Office, Richmond,
Virginia, to the Defense Logistics Agency Headquarters for Base Realignment
and Closure 2005,” April 29, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Logistics Systems Integration Office, Energy Commodity
Systems, Fort Belvoir, Virginia, to the Defense Logistics Agency Headquarters
for Base Realignment and Closure 2005,” April 22, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Logistics Systems Integration Office, Logistics Business
Support Unit, Battle Creek, Michigan, to the Defense Logistics Agency
Headquarters for Base Realignment and Closure 2005,” April 22, 2004
DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Logistics Systems Integration Office, Philadelphia,
Pennsylvania, to the Defense Logistics Agency Headquarters for Base
Realignment and Closure 2005,” April 22, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Logistics Systems Integration Office, Columbus, Ohio, to the
Defense Logistics Agency Headquarters for Base Realignment and Closure
2005,” April 22, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Logistics Systems Integration Office, Hill Air Force Base, Utah,
to the Defense Logistics Agency Headquarters for Base Realignment and Closure
2005,” April 22, 2004




                                   19
      DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
      from the Defense Logistics Information Service, Battle Creek, Michigan, to the
      Defense Logistics Agency Headquarters for Base Realignment and Closure
      2005,” April 22, 2004

      DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
      from the Defense Automatic Addressing System Center, Dayton, Ohio, to the
      Defense Logistics Agency Headquarters for Base Realignment and Closure
      2005,” April 13, 2004

      DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
      from the Defense Automatic Addressing System Center, Tracy, California, to the
      Defense Logistics Agency Headquarters for Base Realignment and Closure
      2005,” April 13, 2004


Army Audit Agency

Army Audit Agency Memorandum No. A-2004-0184-IMT, “Review of Online Data
Collection Tool: Process Controls,” February 20, 2004




                                         20
  Appendix C. Primary DLA Field Activities and
              Other Services Provided

                Table 1: Primary DLA Field Activities

            Activity                     Location               Description
Defense Supply Center Columbus   Columbus, Ohio           Primarily responsible for
                                                          managing maritime and
                                                          land weapons systems
                                                          support items
Defense Supply Center Richmond   Richmond, Virginia       Primarily responsible for
                                                          managing aviation
                                                          support items
Defense Supply Center            Philadelphia,            Primarily responsible for
Philadelphia                     Pennsylvania             managing food, clothing,
                                                          medical, general, and
                                                          industrial supplies
Defense Distribution Center      New Cumberland,          Worldwide network of
                                 Pennsylvania             26 distribution depots,
                                                          20 of which are within
                                                          the United States
Defense Energy Support Center    Fort Belvoir, Virginia   Responsible for
                                                          managing fuels, gas, and
                                                          electrical power
Defense National Stockpile       Fort Belvoir, Virginia   Stockpiles strategic raw
Center                                                    materials
Defense Reutilization and        Battle Creek, Michigan   Primarily responsible for
Marketing Service                                         property disposal of
                                                          various items, scrapping
                                                          of ships and hazardous
                                                          materials




                                        21
Table 2: Other Services Provided by DLA

            Activity                      Location               Description
Defense Logistics Information     Battle Creek, Michigan   Manages and distributes
Service                                                    logistics information
Document Automation and           Mechanicsburg,           Responsible for printing
Production Service                Pennsylvania             services, digital
                                                           conversion, and
                                                           document storage
Defense Automatic Addressing      Dayton, Ohio             Designs, develops, and
System Center                                              implements logistics
                                                           solutions
Defense Logistics Agency          Fort Belvoir, Virginia   Assesses, develops, and
Systems Integration Office                                 delivers enterprise
                                                           information technology
                                                           solutions
Customer Support Office           Columbus, Ohio           Provides human resource
                                                           services
Defense Operations Research and   Richmond, Virginia       Provides analytical
Resource Analysis Office                                   services




                                         22
Appendix D. Capacity Analysis Data Call
            Questions Reviewed and Sites Visited

      Table 1: Capacity Analysis Data Call Questions Reviewed
                           at DLA Sites 1

                 DLA Site                                        Question Number
                                                       Answered                Not Applicable
Defense Automated Addressing                   11, 301, 318, 324, 327,    22, 28, 29, 201, 302,
System Center Headquarters,                    and 472                    310, 311, 313-317, 319-
Dayton, Ohio                                                              322, 325, 326, 447, 455,
                                                                          474, 479, 582, 643, and
                                                                          686
Defense Distribution Center                    11, 314-319, 321, 322,     22-25, 27-29, 201, 301,
Headquarters,                                  324, 447, 455, 464, and    302, 310, 311, 313, 320,
New Cumberland, Pennsylvania 2                 465                        325, 326, 462, 466-468,
                                                                          471, 472, and 479
Defense Supply Center                          23, 24, 27, 84, 154, 198, 12, 13, 15-17, 85, 211,
Columbus,                                      205, 214, 221, 223, 240, 215, 217, 218, 224, 229-
Columbus, Ohio                                 276, 287, 295, 301, 302, 237, 241-245, 252, 254-
                                               304, 305, 307, 314-319,    264, 266-273, 275, 277-
                                               321, 324-327, 447, 455,    280, 286, 293, 296, 303,
                                               472, 474, 477, 478, 481, 310, 311, 313, 323, 330,
                                               582, 634, 635, 640-643,    333, 445, 475, 476, 479,
                                               646-659, 664-666, and      528-532, 536, 540, 542,
                                               678-682                    544, 546, 548-553, 631,
                                                                          and 667
Defense Supply Center                          11, 22-24, 27-29, 301,     318 and 324
Philadelphia,                                  302, 310, 311, 313, 314,
Philadelphia, Pennsylvania                     316, 317, 319, 321, 322,
                                               325, 326, 447, 455, 472,
                                               478, 479, 481, 634, 635,
                                               640-660, 663-668, 671,
                                               676, and 678-682



1
    Responses were reviewed at 17 DLA sites. However, only 16 sites are listed in table 1. The Defense
    Automation Production Service Satellite offices are listed in Table 2; we judgmentally sampled 30 of the
    165 offices. All of the supporting documentation for the 30 satellite offices was physically located at the
    Defense Automation and Production Service headquarters in Mechanicsburg, Pennsylvania. Questions
    were not specifically targeted to headquarters.
2
    We judgmentally sampled 12 of the 20 distribution depots. All of the supporting documentation for the
    12 depots was physically located at Defense Distribution Centers headquarters, New Cumberland,
    Pennsylvania.



                                                       23
 Table 1: Capacity Analysis Data Call Questions Reviewed at
                     DLA Sites (Cont’d)

            DLA Site                              Question Number
                                        Answered                Not Applicable
Defense Supply Center           22, 24, 97, 98, 198, 210, 12, 201, 216-218, 242-
Richmond,                       212, 215, 222, 225, 229, 245, 252, 254-256, 258-
Richmond, Virginia              231, 232, 234, 236, 251, 264, 268-272, 281, 282,
                                274-276, 278, 293, 301,    286-290, 295, 296, 310,
                                302, 304, 305, 307, 318- 311, 313, 315, 472, 475,
                                320, 323-329, 447, 456,    476, 529-532, 536, 542,
                                473, 474, 479, 501-503,    548, 549, 551, 574, 594,
                                506, 510, 528, 540, 544, 631, and 667
                                546, 582, 634, 635, 640-
                                643, 646-659, 664-666,
                                and 678-682
Defense Energy Support Center   27, 301, 311, 314, 319,    13, 15, 17, 22, 23, 29,
Headquarters,                   320, 330, 463, 465, 640- 31, 204, 210, 212, 217,
Fort Belvoir, Virginia          643, 646-651, 654-659,     240, 251, 257, 259, 261,
                                667, 678-680, and 686-     281, 298, 313, 326, 460,
                                691                        462, 464, 467, 472, 582,
                                                           594, 634, 635, 638, 639,
                                                           644, 645, 652, 653, 661-
                                                           663, 666, 669, 670, 674,
                                                           676, 681, 682, 684, 685,
                                                           752, and 753
DLA Headquarters,               11, 23-25, 27, 311, 314,   22, 26, 28, 29, 301, 302,
Fort Belvoir, Virginia          319, 325, 328, 329, 446, 310, 313, 315-318, 320-
                                447, 456, 457, 460-463,    324, 326, 327, 448, 450,
                                465, 466, 468, 471, 473, 455, 464, 467, 480, 528-
                                474, 478, 479, 481, 482, 532, 536, 540, 544, 637,
                                and 688-692                640-643, 654, 655, 657-
                                                           659, 686, and 687
Defense Logistics Information   23-25, 27-29, 302, 313,    11, 22, 201, 301, 310,
Service,                        314, 316, 319, 325, 326, 311, 315, 317, 318, 320-
Battle Creek, Michigan          455, 456, 474, 634, 635, 322, 324, 447, 472, 479,
                                640, 641, 646-659, and     544-546, 548-553, 642,
                                667                        643, and 685




                                      24
     Table 1: Capacity Analysis Data Call Questions Reviewed at
                         DLA Sites (Cont’d)

                 DLA Site                                      Question Number
                                                     Answered                Not Applicable
Defense National Stockpile                    11, 463, 465, 635, 640,   301, 310, 311, 455, 462,
Center,                                       641, 646-649, 651, 655,   466, 471, 472, 594, 634,
Fort Belvoir, Virginia 3                      and 657-659               636, 637, 642, 643, 664,
                                                                        and 685
Defense Operations Research and               11                        479
Resource Analysis Office,
Richmond, Virginia
Defense Reutilization and                     22-24, 302, 311, 313,            11, 25, 27-29, 201, 301,
Marketing Service,                            314, 316, 318-322, 324,          310, 315, 317, 325, 326,
Battle Creek, Michigan 4                      327, 447, 455, 472, 479,         461-468, and 471
                                              634-636, 640, 642, 643,
                                              646-659, 663, 676, 677,
                                              685, and 691
Defense Systems Integration                   301 and 321                      11, 22, 27-29, 201, 302,
Office,                                                                        310, 311, 313-320, 322,
Battle Creek, Michigan                                                         324-327, 447, 455, 460,
                                                                               462-468, 471, 472, 474,
                                                                               479, 582, and 643
Defense Systems Integration                   11, 301, and 582                 22, 28, 29, 201, 302,
Office,                                                                        310, 311, 313-322, 324-
Columbus, Ohio                                                                 327, 447, 455, 460, 462-
                                                                               468, 471, 472, 474, 479,
                                                                               and 643
Defense Systems Integration                   11, 463, 465, and 472            22, 28, 29, 201, 301,
Office,                                                                        302, 310, 311, 313-322,
Fort Belvoir, Virginia                                                         324-327, 447, 455, 460,
                                                                               462, 464, 466-468, 471,
                                                                               474, 479, 582, and 643
Defense Systems Integration                   11, 301, and 324                 22, 28, 29, 201, 310,
Office,                                                                        311, 313-322, 325, 327,
Philadelphia, Pennsylvania                                                     447, 455, 460, 462-468,
                                                                               471, 474, 479, 582, and
                                                                               643

3
    We judgmentally sampled 13 sites: 10 of the staffed sites and 3 of the un-staffed sites. All of the
    supporting documentation for the 13 sites was physically located at the Defense National Stockpile
    Center headquarters, Fort Belvoir, Virginia.
4
    We judgmentally sampled 20 of the 67 Defense Reutilization and Marketing Offices. All of the
    supporting documentation for the 20 selected Defense Reutilization and Marketing Offices was
    physically located at the Defense Reutilization and Marketing Service, Battle Creek, Michigan.



                                                       25
 Table 1: Capacity Analysis Data Call Questions Reviewed at
                     DLA Sites (Cont’d)

           DLA Site                             Question Number
                                     Answered                 Not Applicable
Defense Systems Integration   11, 301, 302, and 326      22, 28, 29, 201, 310,
Office,                                                  311, 313-322, 324, 325,
Hill Air Force Base, Utah                                327, 447, 455, 460, 462-
                                                         468, 471, 472, 474, 479,
                                                         582, and 643




                                    26
Table 2: Capacity Analysis Data Call Questions Reviewed for
                      Other DLA Sites

           DLA Site                               Question Number
                                        Answered                Not Applicable
Defense Automated Addressing    11, 301, 318, 324, 327,    22, 28, 29, 201, 302,
System Center,                  and 472                    310, 311, 313-317, 319-
Tracy, California                                          322, 325, 326, 447, 455,
                                                           474, 479, 582, 643, and
                                                           686
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 466,
Production Service,             455, 464, 465, 467, and    468, 471, and 472
Aberdeen Proving Grounds,       479
Maryland
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Anderson Air Force Base                                    479
(Satellite), Guam
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Arnold Air Station, Tennessee                              479
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Charleston Naval Shipyard,                                 479
South Carolina
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Defense Supply Center,                                     479
Richmond, Virginia
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Dyess Air Force Base, Texas                                479
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Fort Bliss, Texas                                          479
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Fort Drum, New York                                        479
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Fort Eustis, Virginia                                      479
Defense Automation and          11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,             455, 464, and 467          466, 468, 471, 472, and
Fort Knox, Kentucky                                        479



                                       27
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

           DLA Site                                  Question Number
                                           Answered                Not Applicable
Defense Automation and             11, 22, 302, 313, 325,     301, 311, 461-463, 466,
Production Service,                455, 464, 465, and 467     468, 471, 472, and 479
Fort Lesley J. McNair,
Washington, District of Columbia
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Fort McPherson, Georgia                                      479
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Fort Richardson, Alaska                                      479
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Fort Rucker, Alabama                                         479
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Fort Worth, Texas                                            479
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
March Air Force Base, California                             479
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Marine Corps Air Station Cherry                              479
Point, North Carolina
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Mountain Home Air Force Base,                                479
Idaho
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, 467, and 479    466, 468, 471, and 472
Naval Submarine Base Bangor,
Washington
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 466,
Production Service,                455, 464, 465, and 467    468, 471, 472, and 479
Naval Surface Warfare Center
Carderock Division,
Bethesda, Maryland




                                          28
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

           DLA Site                                  Question Number
                                           Answered                Not Applicable
Defense Automation and             11, 22, 302, 313, 325,     301, 311, 461-463, 465,
Production Service,                455, 464, 467, and 479     466, 468, 471, and 472
Naval Surface Warfare Center,
Port Hueneme, California
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Rock Island Arsenal, Illinois                                479
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
San Diego Office Building,                                   479
San Diego, California
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Schofield Barracks Military                                  479
Reservation, Hawaii
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Seymour Johnson Air Force Base,                              479
North Carolina
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Tobyhanna Army Depot,                                        479
Pennsylvania
Defense Automation and             11, 22, 302, 313, 325,
Production Service,                455, 464, and 467         301, 311, 461-463, 465,
TRICARE Management Activity,                                 466, 468, 471, 472, and
Aurora, Colorado                                             479
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
United States Air Force                                      479
Academy, Colorado
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, 466, and 467    468, 471, 472, and 479
White House,
Washington, District of Columbia
Defense Automation and             11, 22, 302, 313, 325,    301, 311, 461-463, 465,
Production Service,                455, 464, and 467         466, 468, 471, 472, and
Wright-Patterson Air Force Base,                             479
Ohio



                                          29
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                            Question Number
                                      Answered                Not Applicable
Defense Distribution Depot,    11, 301, 319, 447, 455,   22, 201, 302, 310, 311,
Albany, Georgia                479, 594, 634-637, 640- 313, 462-467, 471, 472,
                               661, 663, 666, 668, 671- 474, 544, 546, and 548-
                               673, 675, 676, 683, and   553
                               685
Defense Distribution Depot,    11, 301, 319, 447, 455,   22, 201, 302, 310, 311,
Anniston, Alabama              479, 594, 634-637, 640- 313, 462-467, 471, 472,
                               661, 663, 666, 668, 671- 474, 544, 546, and 548-
                               673, 675, 676, 683, and   553
                               685
Defense Distribution Depot,    11, 301, 319, 447, 455,   22, 201, 302, 310, 311,
Barstow, California            479, 594, 634-637, 640- 313, 462-467, 471, 472,
                               661, 663, 666, 668, 671- 474, 544, 546, and 548-
                               673, 675, 676, 683, and   553
                               685
Defense Distribution Depot,    11, 301, 319, 447, 455,   22, 201, 302, 310, 311,
Cherry Point, North Carolina   479, 594, 634-637, 640- 313, 462-467, 471, 472,
                               661, 663, 666, 668, 671- 474, 544, 546, and 548-
                               673, 675, 676, 683, and   553
                               685
Defense Distribution Depot,    11, 301, 319, 447, 455,   22, 201, 302, 310, 311,
Columbus, Ohio                 479, 594, 634-637, 640- 313, 462-467, 471, 472,
                               661, 663, 666, 668, 671- 474, 544, 546, and 548-
                               673, 675, 676, 683, and   553
                               685
Defense Distribution Depot,    301, 319, 479, 636, 637, NONE
Corpus Christi, Texas          654-656, 658-660, 666,
                               671, 672, and 685
Defense Distribution Depot,    301, 319, 479, 636, 637, NONE
Hill, Utah                     654-656, 658-660, 666,
                               671, 672, and 685
Defense Distribution Depot,    11, 301, 319, 447, 455,   22, 201, 302, 310, 311,
Jacksonville, Florida          479, 594, 634-637, 640- 313, 462-467, 471, 472,
                               661, 663, 666, 668, 671- 474, 544, 546, and 548-
                               673, 675, 676, 683, and   553
                               685
Defense Distribution Mapping   301, 319, 479, 636, 637, NONE
Agency,                        654-656, 658-660, 666,
Richmond, Virginia             671, 672, and 685



                                     30
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                            Question Number
                                      Answered                Not Applicable
Defense Distribution Depot,   301, 319, 479, 636, 637, NONE
Norfolk, Virginia             654-656, 658-660, 666,
                              671, 672, and 685
Defense Distribution Depot,   11, 301, 319, 447, 455,    22, 201, 302, 310, 311,
Oklahoma City, Oklahoma       479, 594, 634-637, 640- 313, 462-467, 471, 472,
                              661, 663, 666, 668, 671- 474, 544, 546, and 548-
                              673, 675, 676, 683, and    553
                              685
Defense Distribution Depot,   301, 319, 479, 636, 637, NONE
Pearl Harbor, Hawaii          654-656, 658-660, 666,
                              671, 672, and 685
Defense Distribution Depot,   301, 319, 479, 636, 637, NONE
Puget Sound, Washington       654-656, 658-660, 666,
                              671, 672, and 685
Defense Distribution Depot,   301, 319, 479, 636, 637, NONE
Red River, Texas              654-656, 658-660, 666,
                              671, 672, and 685
Defense Distribution Depot,   11, 301, 319, 447, 455,    22, 201, 302, 310, 311,
Richmond, Virginia            479, 594, 634-637, 640- 313, 462-467, 471, 472,
                              661, 663, 666, 668, 671- 474, 544, 546, and 548-
                              673, 675, 676, 683, and    553
                              685
Defense Distribution Depot,   11, 301, 319, 447, 455,    22, 201, 302, 310, 311,
San Diego, California         479, 594, 634-637, 640- 313, 462-467, 471, 472,
                              661, 663, 666, 668, 671- 474, 544, 546, and 548-
                              673, 675, 676, 683, and    553
                              685
Defense Distribution Depot,   13, 22 40, 240, 301-304, 16, 203, 209, 216, 219,
San Joaquin, California       319, 479, 528, 532, 540, 225, 235, 244, 269, 275,
                              574, 634-637, 640-661,     305, 310, 311, 313, 447,
                              663, 666, 668, 671-673,    462-464, 467, 529, 530,
                              675, 676, 683, and 685     542, 544, 549, and 551
Defense Distribution Depot,   11, 13, 16, 22, 40, 209,   203, 216, 301, 302, 305,
Susquehanna, Pennsylvania     219, 225, 235, 240, 244, 310, 311, 313, 447, 462,
                              269, 275, 303, 304, 319, 464, 467, 479, 529, 530,
                              528, 540, 542, 544, 546, 532, and 551
                              549, 574, 634-636, 640-
                              661, 666, 668, 671, 673,
                              675, 676, 683, and 685



                                    31
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                            Question Number
                                      Answered                Not Applicable
Defense Distribution Depot,   11, 301, 319, 447, 455,    22, 201, 302, 310, 311,
Tobyhanna, Pennsylvania       479, 594, 634-637, 640- 313, 462-467, 471, 472,
                              661, 663, 666, 668, 671- 474, 544, 546, and 548-
                              673, 675, 676, 683, and    553
                              685
Defense Distribution Depot,   301, 319, 479, 636, 637, NONE
Warner Robins, Georgia        654-656, 658-660, 666,
                              671, 672, and 685
Defense Fuel Supply Point,    11, 30, 31, 40, 198, 210, 13, 15, 17, 22, 23, 29,
Charleston Air Force Base,    220, 226, 227, 240, 246, 204, 212, 217, 251, 257,
South Carolina                259, 262, 275, 281, 301, 261, 298, 311, 313, 319,
                              333, 455-457, 602, 612- 326, 460, 462-465, 467,
                              617, 634, 635, 638, 639, 472, 582, 594, 640-643,
                              644, 646-649, 651-653,     645, 650, 654-659, 666,
                              661-663, 669, 670, 674,    667, 678-680, and 685
                              676, 681, 682, 684, 752,
                              and 753
Defense Fuel Supply Point,    11, 30, 31, 40, 198, 210, 13, 15, 17, 22, 23, 29,
Grand Forks Air Force Base,   211, 220, 226, 227, 240, 204, 212, 217, 251, 257,
North Dakota                  246, 259, 262, 275, 281, 261, 298, 311, 313, 319,
                              301, 333, 455-457, 602,    326, 460, 462-465, 467,
                              612-617, 634, 635, 638,    472, 582, 594, 640-643,
                              639, 644, 646-649, 651- 645, 650, 654-659, 666,
                              653, 661-663, 669, 670,    667, 678-680, and 685
                              674, 676, 681, 682, 684,
                              752, and 753
Defense Fuel Supply Point,    11, 30, 31, 40, 198, 210, 13, 15, 17, 22, 23, 29,
Griffis Air Force Base,       211, 220, 226, 227, 240, 204, 212, 217, 251, 257,
Verona, New York              246, 259, 275, 281, 301, 261, 298, 311, 313, 319,
                              333, 455-457, 602, 612- 326, 460, 462-465, 467,
                              617, 634, 635, 638, 639, 472, 582, 594, 640-643,
                              644, 646-649, 651-653,     645, 650, 654-659, 666,
                              661-663, 669, 670, 674,    667, 678-680, and 685
                              676, 681, 682, 684, 752,
                              and 753




                                    32
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                                Question Number
                                          Answered                Not Applicable
Defense Fuel Supply Point,        11, 30, 31, 40, 198, 210, 13, 15, 17, 22, 23, 29,
McDill Air Force Base,            211, 220, 226, 227, 240, 204, 212, 217, 251, 257,
Tampa, Florida                    246, 259, 262, 275, 281, 261, 298, 311, 313, 319,
                                  301, 333, 455-457, 602,    326, 460, 462-465, 467,
                                  612-617, 634, 635, 638,    472, 582, 594, 640-643,
                                  639, 644, 646-649, 651- 645, 650, 654-659, 666,
                                  653, 661-663, 669, 670,    667, 678-680, and 685
                                  674, 676, 681, 682, 684,
                                  752, and 753
Defense Fuel Supply Point South   11, 30, 31, 40, 198, 210, 13, 15, 17, 22, 23, 29,
West Division, Naval Facilities   211, 220, 226, 227, 240, 204, 212, 217, 251, 257,
Engineering Command,              246, 259, 262, 275, 281, 261, 298, 311, 313, 319,
San Pedro, California             301, 333, 455-457, 602,    326, 460, 462-465, 467,
                                  612-617, 634, 635, 638,    472, 582, 594, 640-643,
                                  639, 644, 646-649, 651- 645, 650, 654-659, 666,
                                  653, 661-663, 669, 670,    667, 678-680, and 685
                                  674, 676, 681, 682, 684,
                                  752, and 753
Defense National Stockpile        11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                           472, 634-637, 640-643,     and 594
Baton Rouge, Louisiana            646-649, 651, 655, 657-
                                  659, 664, and 685
Defense National Stockpile        11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                           472, 634-637, 640-643,     and 594
Binghamton, New York              646-649, 651, 655, 657-
                                  659, 664, and 685
Defense National Stockpile        11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                           472, 634-637, 640-643,     and 594
Clearfield, Utah                  646-649, 651, 655, 657-
                                  659, 664, and 685
Defense National Stockpile        11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                           472, 634-637, 640-643,     and 594
Curtis Bay, Maryland              646-649, 651, 655, 657-
                                  659, 664, and 685
Defense National Stockpile        11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                           472, 634-637, 640-643,     and 594
Hammond, Indiana                  646-649, 651, 655, 657-
                                  659, 664, and 685




                                        33
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                              Question Number
                                        Answered                Not Applicable
Defense National Stockpile      11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                         472, 634-637, 640-643,     and 594
New Haven, Indiana              646-649, 651, 655, 657-
                                659, 664, and 685
Defense National Stockpile      11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                         472, 634-637, 640-643,     and 594
Oak Ridge, Tennessee            646-649, 651, 655, 657-
                                659, 664, and 685
Defense National Stockpile      11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                         472, 634-637, 640-643,     and 594
Point Pleasant, West Virginia   646-649, 651, 655, 657-
                                659, 664, and 685
Defense National Stockpile      11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                         472, 634-637, 640-643,     and 594
Ravena, Ohio                    646-649, 651, 655, 657-
                                659, 664, and 685
Defense National Stockpile      11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                         472, 634-637, 640-643,     and 594
Scotia, New York                646-649, 651, 655, 657-
                                659, 664, and 685
Defense National Stockpile      11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                         472, 634-637, 640-643,     and 594
Somerville, New Jersey          646-649, 651, 655, 657-
                                659, 664, and 685
Defense National Stockpile      11, 301, 310, 311, 455,    462, 463, 465, 466, 471,
Center,                         472, 634-637, 640-643,     and 594
Warren, Ohio                    646-649, 651, 655, 657-
                                659, 664, and 685
Defense Reutilization and       11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,               314, 319, 634-636, 640,    315-318, 320-322, 324-
Elmendorf Air Force Base,       646-653, 655-659, 663,     326, 447, 479, 637, 641-
Anchorage, Alaska               676, 677, and 685          643, 654, 660, 662, 668,
                                                           671-673, 675, and 683
Defense Reutilization and       11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,               314, 319, 634-636, 640,    315-318, 320-322, 324-
Camp Lejuene, North Carolina    646-653, 655-659, 663,     326, 447, 479, 637, 641-
                                676, 677, and 685          643, 654, 660, 662, 668,
                                                           671-673, 675, and 683




                                      34
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                                  Question Number
                                            Answered                Not Applicable
Defense Reutilization and           11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                   314, 319, 634-636, 640,    315-318, 320-322, 324-
Cannon Air Force Base,              646-653, 655-659, 663,     326, 447, 479, 637, 641-
New Mexico                          676, 677, and 685          643, 654, 660, 662, 668,
                                                               671-673, 675, and 683
Defense Reutilization and           11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                   314, 319, 634-636, 640,    315-318, 320-322, 324-
Cape Canaveral Air Force            646-653, 655-659, 663,     326, 447, 479, 637, 641-
Station, Florida                    676, 677, and 685          643, 654, 660, 662, 668,
                                                               671-673, 675, and 683
Defense Reutilization and           11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                   314, 319, 634-636, 640,    315-318, 320-322, 324-
Fort Carson,                        646-653, 655-659, 663,     326, 447, 479, 637, 641-
Colorado Springs, Colorado          676, 677, and 685          643, 654, 660, 662, 668,
                                                               671-673, 675, and 683
Defense Reutilization and           11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                   314, 319, 634-636, 640,    315-318, 320-322, 324-
Corpus Christi Naval Air Station,   646-653, 655-659, 663,     326, 447, 479, 637, 641-
Texas                               676, 677, and 685          643, 654, 660, 662, 668,
                                                               671-673, 675, and 683
Defense Reutilization and           11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                   314, 319, 634-636, 640,    315-318, 320-322, 324-
Crane Naval Surface Warfare         646-653, 655-659, 663,     326, 447, 479, 637, 641-
Center, Indiana                     676, 677, and 685          643, 654, 660, 662, 668,
                                                               671-673, 675, and 683
Defense Reutilization and           11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                   314, 319, 634-636, 640,    315-318, 320-322, 324-
Defense Supply Center               646-653, 655-659, 663,     326, 447, 479, 637, 641-
Richmond,                           676, 677, and 685          643, 654, 660, 662, 668,
Richmond, Virginia                                             671-673, 675, and 683
Defense Reutilization and           11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                   314, 319, 634-636, 640,    315-318, 320-322, 324-
Fort Bragg, North Carolina          646-653, 655-659, 663,     326, 447, 479, 637, 641-
                                    676, 677, and 685          643, 654, 660, 662, 668,
                                                               671-673, 675, and 683




                                          35
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                                Question Number
                                          Answered                Not Applicable
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Malmstrom Air Force Base,         646-653, 655-659, 663,     326, 447, 479, 637, 641-
Great Falls, Montana              676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Hill Air Force Base, Utah         646-653, 655-659, 663,     326, 447, 479, 637, 641-
                                  676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Redstone Arsenal,                 646-653, 655-659, 663,     326, 447, 479, 637, 641-
Huntsville, Alabama               676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Jacksonville Naval Air Station,   646-653, 655-659, 663,     326, 447, 479, 637, 641-
Florida                           676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Kapolei, Hawaii                   646-653, 655-659, 663,     326, 447, 479, 637, 641-
                                  676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Letterkenny Army Depot,           646-653, 655-659, 663,     326, 447, 479, 637, 641-
Chambersburg, Pennsylvania        676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Minot Air Force Base,             646-653, 655-659, 663,     326, 447, 479, 637, 641-
North Dakota                      676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683




                                        36
Table 2: Capacity Analysis Data Call Questions Reviewed for
                  Other DLA Sites (Cont’d)

            DLA Site                                Question Number
                                          Answered                Not Applicable
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Offutt Air Force Base, Nebraska   646-653, 655-659, 663,     326, 447, 479, 637, 641-
                                  676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Fort Sam Houston,                 646-653, 655-659, 663,     326, 447, 479, 637, 641-
San Antonio, Texas                676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
French Camp,                      646-653, 655-659, 663,     326, 447, 479, 637, 641-
Stockton, California              676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683
Defense Reutilization and         11, 23, 24, 27, 301, 302, 22, 25, 28, 29, 201, 313,
Marketing Office,                 314, 319, 634-636, 640,    315-318, 320-322, 324-
Vandenberg Air Force Base,        646-653, 655-659, 663,     326, 447, 479, 637, 641-
California                        676, 677, and 685          643, 654, 660, 662, 668,
                                                             671-673, 675, and 683




                                        37
Appendix E. Second Data Call Questions
            Reviewed and Sites Visited

Table 1: Second Data Call Questions Reviewed at DLA Sites 1

                 DLA Site                                     Question Number
                                                      Answered             Not Applicable
Defense Automatic Addressing                 1914                      1905, 1913, 1915-1917,
System Center Headquarters,                                            4072-4074, and 4081
Dayton, Ohio
Defense Automation and                       1905, 1913-1917, and            4072-4074
Production Service Headquarters,             4081
Mechanicsburg, Pennsylvania 2
Defense Supply Center                        1400-1417, 1420, 1421,          1915, 4072, and 4074
Columbus,                                    1501-1506, 1905, 1913,
Columbus, Ohio                               1914, 1916, 1917, 1961,
                                             1962, 2800-2812, 2820,
                                             2831, 2832, 2834-2836,
                                             2842, 2845-2857, 4073,
                                             4079-4081, and 4096
Defense Supply Center                        1905, 1913, 1914, 1916,         1900, 1915, 2813-2819,
Philadelphia,                                1917, 2800-2812, 2820,          2821-2830, and 2833
Philadelphia, Pennsylvania                   2831, 2832, 2834-2836,
                                             2842, and 2845-2857
Defense Supply Center                        1400-1417, 1420, 1421,          2283
Richmond,                                    1500-1507, 1905, 1913-
Richmond, Virginia                           1917, 2154, 2157, 2215,
                                             2219, 2220, 2275, 2278-
                                             2282, 2284-2286, 2341,
                                             2344-2347, 2800-2812,
                                             2820, 2831, 2832, 2834-
                                             2836, 2842, 2845-2857,
                                             4072-4074, 4079-4081,
                                             4096, and 4276




1
    We judgmentally sampled 10 of the 20 distribution depots. All of the supporting documentation for the
    10 depots was physically located at the Defense Distribution Center, New Cumberland, Pennsylvania.
    No questions were targeted specifically to headquarters.
2
    We selected the 22 commercially leased sites for review. All of the supporting documentation was
    physically located at Defense Automation and Production Service headquarters, Mechanicsburg,
    Pennsylvania.



                                                     38
         Table 1: Second Data Call Questions Reviewed at DLA
                              Sites (Cont’d)

                 DLA Site                                       Question Number
                                                      Answered                Not Applicable
Defense Energy Support Center,                 1914, 1916, 1917, 2802- 1905, 1913, and 1915
Fort Belvoir, Virginia                         2805, 2808-2812, 2820,
                                               2831, 2832, 2834-2836,
                                               2842, and 2845-2857
DLA Headquarters,                              1905, 1907, 1908, 1911, 1900, 1909, 1910, 1961,
Fort Belvoir, Virginia                         1913-1917, 1962, 1963,    and 4072-4074
                                               4079, 4080, and 4099-
                                               4103
Defense Logistics Information                  1400-1417, 1420, 1421,    1500, 1502, 1507, 1900,
Service,                                       1501, 1503-1506, 1905,    1907-1910, and 1961-
Battle Creek, Michigan                         1913-1917, 2820, 2831,    1963
                                               2832, 2834-2836, 2845-
                                               2856, 4072-4074, 4079-
                                               4081, and 4096
Defense National Stockpile                     1501, 1504, 1905, 1913- 1400-1417, 1420, 1421,
Center,                                        1917, 2820, 2831-2836,    1500, 1502, 1503, 1505,
Fort Belvoir, Virginia 3                       and 2845-2856             1506, 1507, 1912, 2806,
                                                                         2807, 2824, 2840, and
                                                                         2841
Defense Reutilization and                      1905, 1913, 1914, 1916, 1915 and 4080
Marketing Service,                             1917, and 4081
Battle Creek, Michigan 4




3
    We judgmentally sampled 13 sites: 10 of the staffed sites and 3 of the unstaffed sites. All of the
    supporting documentation for the 13 sites was physically located at the Defense National Stockpile
    Center, Fort Belvoir, Virginia.

4
    We judgmentally sampled 20 of the 67 Defense Reutilization and Marketing Offices (10 of the 20 were
    sites included in the capacity analysis data call). All of the supporting documentation for the 20 sites was
    physically located at Defense Reutilization and Marketing Service, Battle Creek, Michigan.



                                                       39
   Table 2: Second Data Call Questions Reviewed for Other
                          DLA Sites

            DLA Site                              Question Number
                                          Answered             Not Applicable
Customer Support Office,           1900 and 1918           1907-1909, 1961, 4072-
Columbus, Ohio                                             4074, and 4081
Customer Support Office,           1900 and 1918           1907-1909, 1961, 4072-
New Cumberland, Pennsylvania                               4074, and 4081
Defense Automatic Addressing       1914                    1905, 1913, 1915-1917,
System Center,                                             4072-4074, and 4081
Tracy, California
Defense Automation and             1400-1417, 1420, 1421    NONE
Production Service,                1501, and 1503-1505
Arlington, Virginia
Defense Automation and             1400-1417, 1420, 1421    NONE
Production Service,                1501, and 1503-1505
Atlanta, Georgia
Defense Automation and             1400-1417, 1420, 1421,   NONE
Production Service,                1501, and 1503-1505
Aurora, Colorado
Defense Automation and             1400-1417, 1420, 1421    NONE
Production Service,                1501, and 1503-1505
Bethesda, Maryland
Defense Automation and             1400-1417, 1420, 1421,   NONE
Production Service,                1501, and 1503-1505
Boston, Massachusetts
Defense Automation and             1400-1417, 1420,1421,    NONE
Production Service,                1501, and 1503-1505
Cleveland, Ohio
Defense Automation and             1400-1417, 1420, 1421,   NONE
Production Service,                1501, and 1503-1505
Fern Street, Arlington, Virginia
Defense Automation and             1400-1417, 1420, 1421,   NONE
Production Service,                1501, and 1503-1505
Fort Worth, Texas
Defense Automation and             1400-1417, 1420, 1421,   NONE
Production Service,                1501, and 1503-1505
Huntsville, Alabama
Defense Automation and             1400-1417, 1420, 1421,   NONE
Production Service,                1501, and 1503-1505
Indianapolis, Indiana




                                         40
   Table 2: Second Data Call Questions Reviewed for Other
                      DLA Sites (Cont’d)

          DLA Site                             Question Number
                                      Answered             Not Applicable
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Jacksonville, Florida
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Kansas City, Missouri
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Louisville, Kentucky
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Nashville, Tennessee
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
New York, New York
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Omaha, Nebraska
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Portland, Oregon
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Sacramento Army Depot,
California
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Savannah, Georgia
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
St. Louis, Missouri
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
TRICARE Management Activity,
Aurora, Colorado
Defense Automation and         1400-1417, 1420, 1421,   NONE
Production Service,            1501, and 1503-1505
Walla Walla, Washington




                                     41
   Table 2: Second Data Call Questions Reviewed for Other
                      DLA Sites (Cont’d)

            DLA Site                           Question Number
                                      Answered             Not Applicable
Defense Distribution Depot,    2813-2833, 2837-2856,    NONE
Albany, Georgia                4072-4074, 4079-4081,
                               4096, and 4306-4311
Defense Distribution Depot,    2818-2820, 2831, 2832,   NONE
Anniston, Alabama              2843-2848, 4308, and
                               4309
Defense Distribution Depot,    2813-2833, 2837-2856,    NONE
Barstow, California            4072-4074, 4079-4081,
                               4096, and 4306-4311
Defense Distribution Depot,    2818-2820, 2831, 2832,   NONE
Cherry Point, North Carolina   2843-2848, 4308, and
                               4309
Defense Distribution Depot,    2818-2820, 2831, 2832,   NONE
Columbus, Ohio                 2843-2848, 4308, and
                               4309
Defense Distribution Depot,    2813-2833, 2837-2856,    NONE
Corpus Christi, Texas          4072-4074, 4079-4081,
                               4096, and 4306-4311
Defense Distribution Depot,    2813-2833, 2837-2856,    NONE
Hill, Utah                     4072-4074, 4079-4081,
                               4096, and 4306-4311
Defense Distribution Depot,    2813-2833, 2837-2856,    NONE
Jacksonville, Florida          4072-4074, 4079-4081,
                               4096, and 4306-4311
Defense Distribution Mapping   2813-2833, 2837-2856,    NONE
Agency,                        4072-4074, 4079-4081,
Richmond, Virginia             4096, and 4306-4311
Defense Distribution Depot,    2813-2833, 2837-2856,    NONE
Norfolk, Virginia              4072-4074, 4079-4081,
                               4096, and 4306-4311
Defense Distribution Depot,    2813-2833, 2837-2856,    NONE
Oklahoma City, Oklahoma        4072-4074, 4079-4081,
                               4096, and 4306-4311
Defense Distribution Depot,    2818-2820, 2831, 2832,   NONE
Pearl Harbor, Hawaii           2843-2848, 4308, and
                               4309
Defense Distribution Depot,    2818-2820, 2831, 2832,   NONE
Puget Sound, Washington        2843-2848, 4308, and
                               4309



                                     42
   Table 2: Second Data Call Questions Reviewed for Other
                      DLA Sites (Cont’d)

            DLA Site                               Question Number
                                         Answered              Not Applicable
Defense Distribution Depot,       2818-2820, 2831, 2832,    NONE
Red River, Texas                  2843-2848, 4308, and
                                  4309
Defense Distribution Depot,       2813-2833, 2837-2856,     NONE
Richmond, Virginia                4072-4074, 4079-4081,
                                  4096, and 4306-4311
Defense Distribution Depot,       2818-2820, 2831, 2832,    NONE
San Diego, California             2843-2848, 4308, and
                                  4309
Defense Distribution Depot,       1400-1417, 1420, 1421,    NONE
San Joaquin, California           1500-1507, 1905, 1913-
                                  1917, 2818-2820, 2831,
                                  2832, 2843-2848, 4308,
                                  and 4309
Defense Distribution Depot,       1400-1417, 1420, 1421,    NONE
Susquehanna, Pennsylvania         1500-1507, 1905, 1913-
                                  1917, 2813-2833, 2837-
                                  2856, 4072-4074, 4079-
                                  4081, 4096, and 4306-
                                  4311
Defense Distribution Depot,       2818-2820, 2831, 2832,    NONE
Tobyhanna, Pennsylvania           2843-2848, 4308, and
                                  4309
Defense Distribution Depot,       2818-2820, 2831, 2832,    NONE
Warner Robins, Georgia            2843-2848, 4308, and
                                  4309
Defense Fuel Supply Point,        1400-1417, 1420, 1421,    NONE
Charleston Air Force Base,        1501, 1503-1505, 2813,
South Carolina                    2815, 2820, 2821, 2823-
                                  2833, and 2840-2856
Defense Fuel Supply Point,        1400-1417, 1420, 1421,    NONE
Grand Forks Air Force Base,       1501, 1503-1505, 2813,
North Dakota                      2815, 2820, 2821, 2823-
                                  2833, and 2840-2856
Defense Fuel Supply Point,        1400-1417, 1420, 1421,    NONE
Griffis Air Force Base, Verona,   1501, 1503-1505, 2813,
New York                          2815, 2820, 2821, 2823-
                                  2833, and 2840-2856




                                        43
   Table 2: Second Data Call Questions Reviewed for Other
                      DLA Sites (Cont’d)

            DLA Site                              Question Number
                                         Answered               Not Applicable
Defense Fuel Supply Point,        1501, 1503-1505, 2813,   NONE
McDill Air Force Base, Tampa,     2815, 2820, 2821, 2823-
Florida                           2833, and 2840-2856
Defense Fuel Supply Point,        1400-1417, 1420, 1421,   NONE
South West Division, Naval        1501, 1503-1505, 2813,
Facilities Engineering Command,   2815, 2820, 2821, 2823-
San Pedro, California             2833, and 2840-2856
Defense National Stockpile        1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                           1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Baton Rouge, Louisiana            2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                  2833, 2840, 2841, and    2856
                                  2845-2854
Defense National Stockpile        1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                           1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Binghamton, New York              2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                  2833, 2840, 2841, and    2856
                                  2845-2854
Defense National Stockpile        1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                           1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Clearfield, Utah                  2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                  2833, 2840, 2841, and    2856
                                  2845-2854
Defense National Stockpile        1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                           1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Curtis Bay, Maryland              2807, 2820, 2824, 2831- 2834-2836, 2845-2847,
                                  2833, 2840, 2841, 2848- 2851, 2855, and 2856
                                  2850, and 2852-2854
Defense National Stockpile        1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                           1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Hammond, Indiana                  2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                  2833, 2840, 2841, and    2856
                                  2845-2854
Defense National Stockpile        1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                           1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
New Haven, Indiana                2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                  2833, 2840, 2841, and    2856
                                  2845-2854




                                        44
   Table 2: Second Data Call Questions Reviewed for Other
                      DLA Sites (Cont’d)

            DLA Site                            Question Number
                                       Answered               Not Applicable
Defense National Stockpile      1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                         1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Oak Ridge, Tennessee            2807, 2820, 2824, 2833, 2831, 2832, 2834-2836,
                                2840, 2841, 2848, and    2845-2847, 2849-2851,
                                2852-2854                2855, and 2856
Defense National Stockpile      1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                         1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Point Pleasant, West Virginia   2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                2833, 2840, 2841, and    2856
                                2845-2854
Defense National Stockpile      1501, 1503, 1504, 2806, 1400-1417, 1420, 1421,
Center,                         2807, 2820, 2824, 2833, 1500, 1502, 1505, 1506,
Ravena, Ohio                    2840, 2841, 2848, and    1507, 1905, 1912-1917,
                                2852-2854                2831, 2832, 2834-2836,
                                                         2845-2847, 2849-2851,
                                                         2855, and 2856
Defense National Stockpile      1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                         1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Scotia, New York                2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                2833, 2840, 2841, and    2856
                                2845-2854
Defense National Stockpile      1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                         1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Somerville, New Jersey          2807, 2820, 2824, 2831- 2834-2836, 2855, and
                                2833, 2840, 2841, and    2856
                                2845-2854
Defense National Stockpile      1400-1417, 1420, 1421,   1500, 1502, 1505, 1506,
Center,                         1501, 1503, 1504, 2806, 1507, 1905, 1912-1917,
Warren, Ohio                    2807, 2820, 2824, 2831- and 2834-2836
                                2833, 2840, 2841, and
                                2845-2856
Defense Reutilization and       2813, 2815, 2816, 2818, NONE
Marketing Office,               2820, 2821, 2831-2833,
Elmendorf Air Force Base,       2842, and 2845-2856
Anchorage, Alaska
Defense Reutilization and       2813, 2815, 2816, 2818,   NONE
Marketing Office,               2820, 2821, 2831-2833,
Camp Lejuene, North Carolina    2842, and 2845-2856




                                      45
   Table 2: Second Data Call Questions Reviewed for Other
                      DLA Sites (Cont’d)

            DLA Site                              Question Number
                                         Answered             Not Applicable
Defense Reutilization and         2813, 2815, 2816, 2818, NONE
Marketing Office,                 2820, 2821, 2831-2833,
Fort Carson,                      2842, and 2845-2856
Colorado Springs, Colorado
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Crane Naval Surface Warfare       2842, and 2845-2856
Center, Crane, Indiana
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Fort Hood, Texas                  2842, and 2845-2856
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Fort Stewart, Georgia             2842, and 2845-2856
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
New London Submarine Base,        2842, and 2845-2856
Groton, Connecticut
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Hill Air Force Base, Utah         2842, and 2845-2856
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Kapolei, Hawaii                   2842, and 2845-2856
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Minot Air Force Base,             2842, and 2845-2856
North Dakota
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Nellis Air Force Base, Nevada     2842, and 2845-2856
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Norfolk Naval Station, Virginia   2842, and 2845-2856
Defense Reutilization and         2813, 2815, 2816, 2818,   NONE
Marketing Office,                 2820, 2821, 2831-2833,
Offutt Air Force Base, Nebraska   2842, and 2845-2856




                                        46
   Table 2: Second Data Call Questions Reviewed for Other
                      DLA Sites (Cont’d)

            DLA Site                               Question Number
                                          Answered             Not Applicable
Defense Reutilization and          2813, 2815, 2816, 2818, NONE
Marketing Office,                  2820, 2821, 2831-2833,
Oklahoma City, Oklahoma            2842, and 2845-2856
Defense Reutilization and          2813, 2815, 2816, 2818, NONE
Marketing Office,                  2820, 2821, 2831-2833,
Fort Sam Houston,                  2842, and 2845-2856
San Antonio, Texas
Defense Reutilization and          2813, 2815, 2816, 2818,   NONE
Marketing Office,                  2820, 2821, 2831-2833,
Scott Air Force Base, Illinois     2842, and 2845-2856
Defense Reutilization and          2813, 2815, 2816, 2818,   NONE
Marketing Office,                  2820, 2821, 2831-2833,
Fort McCoy, Sparta, Wisconsin      2842, and 2845-2856
Defense Reutilization and          2813, 2815, 2816, 2818,   NONE
Marketing Office,                  2820, 2821, 2831-2833,
French Camp,                       2842, and 2845-2856
Stockton, California
Defense Reutilization and          2813, 2815, 2816, 2818,   NONE
Marketing Office,                  2820, 2821, 2831-2833,
Red River Army Depot,              2842, and 2845-2856
Texarkana, Texas
Defense Reutilization and          2813, 2815, 2816, 2818,   NONE
Marketing Office,                  2820, 2821, 2831-2833,
Wright-Patterson Air Force Base,   2842, and 2845-2856
Ohio




                                         47
Appendix F. Second Data Call Responses
            Considered Unsupported or
            Partially Supported
           The following responses to the second data call were considered either
           unsupported, partially supported, or were based on information responsible
           personnel considered to be the best data available.

               •    For DLA headquarters, responses to HSA JCSG military value question
                    numbers 1907 1 and 1908 2 could not be validated because the
                    documentation used by DLA to support the response were the calendars of
                    senior officials. We could not verify whether the meetings actually took
                    place.
               •    For Defense Energy Support Center headquarters, responses to HSA
                    JCSG military value question number 1914 and S&S JCSG military value
                    question numbers 2803, 2834, 2836, 2853, and 2854 were not provided for
                    the timeframe requested.

               •    For Defense Fuel Supply Points Charleston, Grand Forks, San Pedro, and
                    Verona, JPAT 7 question numbers 1405 through 1407, 1420, and 1421,
                    along with S&S JCSG military value question number 2820 for all five
                    Defense Fuel Supply Points were unsupported.

               •    For Defense Fuel Supply Points Grand Forks, San Pedro, and Verona,
                    S&S JCSG military value question numbers 2815, 2823, and 2825 were
                    only partially supported because the required information for one or more
                    of the fiscal years was not available.

               •    For Defense Fuel Supply Points Charleston, Grand Forks, Verona, and
                    Tampa, S&S JCSG military value question numbers 2831, 2832, 2849,
                    and 2850 were supported by an e-mail from DLA headquarters. We could
                    not determine if the responses were accurate; however, Defense Energy
                    Support Center headquarters personnel maintained that the responses were
                    based on data it considered to be the best available.

               •    For Defense National Stockpile Center Baton Rouge, Binghamton,
                    Clearfield, Curtis Bay, Hammond, New Haven, Oak Ridge, Point
                    Pleasant, Scotia, Summerville, and Warren, JPAT 7 question numbers
                    1405 and 1406 (except Clearfield for 1406) were only partially answered
                    because the data was not available.

               •    For selected Defense Distribution Depots (except Columbus), S&S JCSG
                    military value question number 2844 was unsupported. Furthermore, a
                    portion of the response for question number 2844 was included in the

1
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
2
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.



                                                      48
    response for question number 2828. Therefore, a portion of the response
    for S&S JCSG military value question number 2828 may also be
    unsupported.

•   For JPAT 7 question number 1405 for Defense Automation and
    Production Service Arlington, Aurora, Boston, Cleveland, Fern Street,
    Fort Worth, Indianapolis, Kansas City, Louisville, Nashville, New York,
    Omaha, Portland, Sacramento, St. Louis, and TRICARE Management
    Activity, and JPAT 7 question number 1406 for Arlington, Aurora,
    Bethesda, Boston, Cleveland, Fern Street, Huntsville, Kansas City,
    Louisville, Nashville, New York, Omaha, Portland, Sacramento,
    TRICARE Management Activity, and Walla Walla, data were either
    erroneous or not available.

•   For Defense Logistics Information Service, responses to JPAT 7 question
    numbers 1405 and 1406 were based on written memorandums referencing
    telephone conversations. Responses for 1420 and 1421 were based on a
    memorandum for the record. Defense Logistics Information Service
    personnel considered the responses to be the best data available.

•   For Defense Logistics Information Service, the responses provided for
    HSA JCSG military value question numbers 1905, 1916, and 1917 were as
    of FY 2003. The questions required a response as of August 2004.

•   For Defense Supply Center Richmond, JPAT 7 question numbers 1405
    and 1406 were unsupported because the required data were not available.

•   For Customer Support Office Columbus, HSA JCSG military value
    question number 1900, the response for FY 2001 was unsupported.




                                49
Appendix G. Scenario Specific Data Calls
            Reviewed

       Table 1. Headquarters and Support Activities Joint Cross
            Service Group Scenario Data Calls Reviewed for
                            DLA Response

Scenario Data Call                Status ∗             Categories of DLA Responses Reviewed
Numbers Reviewed
HSA-0029                     Active              Data related to personnel, selected capacity
                                                 analysis data, activity mission costs and savings,
                                                 one-time unique costs, miscellaneous recurring
                                                 savings, one-time information technology costs,
                                                 and environmental non-military construction
                                                 costs
HSA-0030                     Inactive            Data related to personnel, selected capacity
HSA-0031                                         analysis data, activity mission costs and savings,
HSA-0088                                         one-time unique costs, miscellaneous recurring
HSA-0096                                         savings, one-time information technology costs,
HSA-0097                                         and environmental non-military construction
                                                 costs




∗
    Represents the status as of April 8, 2005. This Appendix does not list those scenarios that we reviewed
    but have subsequently been cancelled.



                                                      50
     Table 2. Supply and Storage Joint Cross Service Group
         Scenario Data Calls Reviewed for DLA Response

 Scenario Data Call       Status       Categories of DLA Responses Reviewed
Numbers Reviewed
S&S-0004              Inactive     Data related to personnel, selected capacity
S&S-0005                           analysis data, storage space, one-time unique
                                   costs and savings, miscellaneous recurring costs
                                   and savings, one-time information technology
                                   costs, one-time moving costs, environmental non-
                                   military construction costs, military construction
                                   costs, and contract costs
S&S-0035              Active       Data related to personnel, selected capacity
                                   analysis data, storage space, one-time unique
                                   costs and savings, miscellaneous recurring costs
                                   and savings, one- time information technology
                                   costs, one- time moving costs, environmental
                                   non-military construction costs, military
                                   construction costs, and contract costs
S&S-0043              Active       Data related to personnel, selected capacity
S&S-0044                           analysis data, storage space, one-time unique
S&S-0045                           costs and savings, miscellaneous recurring costs
                                   and savings, contract costs, and the dollar value
                                   of inventory
S&S-0046              Inactive     Data related to personnel, cost estimates, savings
                                   estimates, facilities, and supply operations
S&S-0048              Active       Data related to personnel, selected capacity
S&S-0051                           analysis data, storage space, one-time unique
                                   costs and savings, miscellaneous recurring costs
                                   and savings, one- time information technology
                                   costs, one- time moving costs, environmental
                                   non-military construction costs, military
                                   construction costs, and contract costs




                                       51
 Table 3. Department of the Navy BRAC Team Scenario Data
               Calls Reviewed for DLA Response

Scenario Data Call      Status       Categories of DLA Responses Reviewed
Numbers Reviewed
DON-0165             Active      Data related to personnel, activity mission
DON-0167                         savings, one- time unique costs, miscellaneous
                                 recurring costs and savings, one- time information
                                 technology costs, one- time moving costs,
                                 environmental non-military construction costs,
                                 military construction costs, contract costs, and
                                 movement of equipment




                                     52
Appendix H. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)

     Director, Defense Logistics Agency


Non-Defense Federal Organizations
     Government Accountability Office




                                          53
           Team Members
           The Department of Defense Office of the Deputy Inspector General for Auditing,
           Readiness and Logistics Support prepared this report. Personnel of the
           Department of Defense Office of Inspector General who contributed to this report
           are listed below.


           Shelton R. Young                                     Wilson S. Malcolm
           Michael A. Joseph                                    Brett A. Mansfield
           Thomas S. Bartoszek                                  Timothy Marrer
           Deborah L. Culp                                      Anna P. Martin
           Tilghman A. Schraden                                 James J. McDermott
           Terrance P. Wing                                     Alexander L. McKay
           John W. Henry                                        Daniel L. Messner
           Richard Kotecki                                      Michael R. Nova
           Albert L. Putnam                                     David A. Palmer
           Tamika S. Ali                                        Robin T. Parrish
           Robert C. Bare ∗                                     Robert E. Rhinier*
           Eugene V. Barr                                       Helen V. Robinson*
           William C. Blouvet                                   Mandy L. Rush
           Walter S. Bohinski                                   Beth N. Sakshaug
           Dawn M. Borum                                        Robert E. Schonewolf
           Joseph J. Bowman                                     Vansamai Seumsouk
           Robert T. Briggs                                     Bridgette A. Strecker
           Kristin A. Caskey                                    Michael A. Talevi
           Beverly J. Charlton                                  James W. Thomas*
           Janice Conte                                         Herman J. Tolbert
           Lavaeda G. Coulter*                                  Jennifer L. Trieschman
           Sherry L. Davis*                                     Lynnell E. Whitehead
           Michelle S. Emigh                                    Cynthia G. Williams
           John S. Epps                                         Dorwilda R. Willis*
           Mary J. Gibson                                       Eva M. Zahn
           Maria C. Gillen
           Andrew R. Hagenow*
           Robert J. Hanlon
           Paul A. Hollister
           Mary A. Hubbell
           Doug R. Janson*
           George P. Johnson
           Meredith H. Johnson
           Brian S. Leinbach
           Karl R. Lipscomb*


∗
    Audit Assistance and Support: DLA provided auditors to assist in the data validation at selected DLA
    sites. The DLA auditors were used as team members, but were restricted from being team leaders, or
    validating data from their respective activities.
